TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Processes Do Not Ensure That Complaints
                   Against Tax Return Preparers Are Timely,
                    Accurately, and Consistently Processed



                                            August 8, 2014

                               Reference Number: 2014-40-056




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.

Redaction Legend:
1 = Tax Return/Return Information
3 = Identifying Information - Other Identifying Information of an Individual or Individuals



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                     HIGHLIGHTS


PROCESSES DO NOT ENSURE THAT                            TIGTA also identified that the IRS has
COMPLAINTS AGAINST TAX RETURN                           not established a process to reconcile
PREPARERS ARE TIMELY,                                   complaints received with what was entered
ACCURATELY, AND CONSISTENTLY                            into inventory records. TIGTA’s review
                                                        identified 839 complaints received during
PROCESSED
                                                        December 2012 and January 2013 that
                                                        were not entered into inventory records until
Highlights                                              34 to 64 business days after IRS receipt.
                                                        In addition, processes do not ensure that
Final Report issued on August 8, 2014                   complaints are accurately and consistently
                                                        processed. TIGTA’s review of a statistically
Highlights of Reference Number: 2014-40-056             valid sample of 73 complaints found that, for the
to the Internal Revenue Service Deputy                  25 complaints worked, the risk ranking process
Commissioner for Services and Enforcement.              used by case processors to rank, score, and
                                                        prioritize the complaints was insufficient
IMPACT ON TAXPAYERS                                     because each case processor applied the risk
Tax return preparers serve a critical role in tax       ranking elements differently.
administration and represent an important               Finally, processes have not been established to
intermediary between taxpayers and the IRS.             effectively track complaint referrals to business
Because of this critical role, identifying problem      functions. Our review of a statistically valid
preparers through the complaint process is an           sample of 67 complaints found that the business
essential component of the IRS’s oversight              functions had no record of receiving
responsibilities. Unqualified or unethical tax          19 (28 percent) complaints.
return preparers can negatively impact
taxpayers as well as tax revenue if the tax             WHAT TIGTA RECOMMENDED
returns they prepare are incorrect and/or
                                                        TIGTA recommended that the IRS establish
fraudulent.
                                                        complaint processing time frame goals and
WHY TIGTA DID THE AUDIT                                 procedures to ensure that complaints are timely
                                                        processed; develop a reconciliation process to
This audit was initiated as a follow-up to a prior      ensure that complaints received are recorded in
audit in which TIGTA reported the process               inventory records; ensure that criteria for
taxpayers must use to report complaints against         referring complaints to business functions are
tax return preparers is ineffective and causes          appropriately applied and that the business
unnecessary taxpayer burden. The overall                functions’ resolution of complaint referrals is
objective of the audit was to determine whether         tracked; establish procedures to contact
the IRS’s tax return preparer complaint process         taxpayers for missing information; ensure that all
is effective.                                           data collected on complaints are included in the
                                                        case processing system; and ensure that the
WHAT TIGTA FOUND
                                                        capability exists to produce management
Complaints against tax return preparers                 information reports.
are not timely processed. TIGTA’s review
                                                        In its response, IRS management agreed with
of the 8,354 complaints received in
                                                        six of the eight recommendations and plans to
Calendar Years 2012 and 2013, as of
                                                        take corrective actions. For the one partially
September 11, 2013, identified
                                                        agreed recommendation and the one disagreed
3,953 (47 percent) for which work on the
                                                        recommendation, TIGTA continues to believe
complaints had yet to be initiated. Of the
                                                        that the IRS should track how the business
3,953 complaints, 1,920 (49 percent) had
                                                        functions resolve referred complaints and should
been in the IRS’s inventory for at least
                                                        contact taxpayers for missing information on
60 business days with no work initiated.
                                                        submitted complaints in order to work as many
                                                        complaints as possible.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 8, 2014


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                       Michael E. McKenney
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Processes Do Not Ensure That Complaints
                             Against Tax Return Preparers Are Timely, Accurately, and
                             Consistently Processed (Audit # 201340008)

 This report presents the results of our review to determine whether the tax return preparer
 complaint process is effective. This audit is included in the Treasury Inspector General for
 Tax Administration’s Fiscal Year 2014 Annual Audit Plan and addresses the major management
 challenge of Taxpayer Protection and Rights.
 Management’s complete response to the draft report is included in Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Russell P. Martin,
 Acting Assistant Inspector General for Audit (Returns Processing and Account Services).
                                        Processes Do Not Ensure That Complaints
                                        Against Tax Return Preparers Are Timely,
                                         Accurately, and Consistently Processed




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 8
          Complaints Against Tax Return Preparers Are
          Not Timely Processed ................................................................................... Page 8
                    Recommendations 1 and 2: .............................................. Page 10

          Processes Do Not Ensure That Complaints Are
          Accurately and Consistently Processed ........................................................ Page 10
                    Recommendation 3:........................................................ Page 14

                    Recommendations 4 and 5: .............................................. Page 15

                    Recommendation 6:........................................................ Page 16

          Some Recommendations Reported in a Prior
          Treasury Inspector General for Tax Administration
          Report Have Been Addressed ....................................................................... Page 16
                    Recommendations 7 and 8: .............................................. Page 18


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 19
          Appendix II – Major Contributors to This Report ........................................ Page 21
          Appendix III – Report Distribution List ....................................................... Page 22
          Appendix IV – Form 14157, Complaint: Tax Return Preparer ................... Page 23
          Appendix V – Complaint Processing Example ............................................ Page 27
          Appendix VI – Management’s Response to the Draft Report ...................... Page 31
                    Processes Do Not Ensure That Complaints
                    Against Tax Return Preparers Are Timely,
                     Accurately, and Consistently Processed




                           Abbreviations

CIS                 Correspondence Imaging System
CRO                 Complaint Referrals Office
CY                  Calendar Year
e-filed; e-filing   Electronically Filed, Electronic Filing
IRS                 Internal Revenue Service
PTIN                Preparer Tax Identification Number
RPO                 Return Preparer Office
TIGTA               Treasury Inspector General for Tax Administration
                                    Processes Do Not Ensure That Complaints
                                    Against Tax Return Preparers Are Timely,
                                     Accurately, and Consistently Processed




                                             Background

Tax return preparers serve a critical role in tax administration and represent an important
intermediary between taxpayers and the Internal Revenue Service (IRS). The IRS processed
about 77 million individual electronically filed (e-filed) Federal income tax returns prepared by
paid tax return preparers in Calendar Year (CY) 2013. Figure 1 shows the most common types
and number of return preparers as of January 3, 2014.
                 Figure 1: Types and Number of Paid Tax Return Preparers

                    Unenrolled or Unlicensed Tax Return Preparers                                    Number

    These tax return preparers range from those who might receive extensive training to
    those with little or no training. Currently, only four States (California, Maryland,
    New York, and Oregon) have requirements such as registration and continuing                        403,008
    education requirements for unenrolled paid tax return preparers.

                   Tax Return Preparers With Professional Credentials

    Licensed professionals, such as attorneys and certified public accountants, are
    regulated by the State licensing authority and related associations such as the
    American Bar Association and the American Institute of Certified Public Accountants.               256,669

    Enrolled agents are professionals who pass an IRS examination or present evidence of
    qualifying experience as a former IRS employee and have been issued an enrollment
    card. Enrolled agents are the only taxpayer representatives who receive their right to              51,879
    represent clients in matters that involve the IRS from the Federal Government.
Source: IRS Return Preparer Office (RPO).

Because of the critical role they have in helping taxpayers to comply with the tax laws,
identifying problem preparers through the complaint process is an essential component of the
IRS’s oversight responsibilities. Unqualified or unethical tax return preparers can negatively
impact taxpayers as well as tax revenue if the tax returns they prepare are incorrect and/or
fraudulent. The burden on taxpayers can include receiving an incorrect refund amount or even
owing the IRS penalties and interest. As such, the IRS has developed processes and procedures
through which taxpayers1 can file a complaint with the IRS.
To file a complaint, taxpayers complete and mail Form 14157, Complaint: Tax Return
Preparer,2 to the IRS Complaint Referrals Office (CRO), which is located in the IRS RPO. The

1
  Tax return preparers may also file a complaint against another return preparer. These complaints are not
distinguished and are included as taxpayer complaints for the purposes of this report.
2
  See Appendix IV for a copy of Form 14157.
                                                                                                             Page 1
                                  Processes Do Not Ensure That Complaints
                                  Against Tax Return Preparers Are Timely,
                                   Accurately, and Consistently Processed



CRO is responsible for collecting the complaints, and cataloguing and building preliminary case
files for review, including consolidating the processing of Form 14157 complaints to enable the
IRS to better identify problematic tax return preparers and trends in tax return preparer
compliance.
The Form 14157 is available on the IRS’s public website, IRS.gov; at Taxpayer Assistance
Centers3 located throughout the Nation; and by calling the IRS toll-free telephone line. The CRO
has established four phases to process complaints: receipt and control, scoring and prioritization,
treatment determination, and manager review. Processing begins when the CRO clerk receives a
Form 14157.4 Once received, the clerk enters information from the Form 14157 into a
spreadsheet (the IRS refers to this as the Master Inventory spreadsheet). The clerk then scans
and saves an electronic copy of the Form 14157. Once this is completed, a CRO manager
assigns the complaint to a case processor. Case processors are responsible for assigning a
complaint category and allegation type to each complaint based on the allegation information
detailed in the Form 14157 and any supporting evidence. Figure 2 shows the complaint
categories and allegation types.




3
  An IRS office with employees who answer questions, provide assistance, and resolve account-related issues for
taxpayers face to face.
4
  This report describes processes in place on September 11, 2013.
                                                                                                           Page 2
                                   Processes Do Not Ensure That Complaints
                                   Against Tax Return Preparers Are Timely,
                                    Accurately, and Consistently Processed



                    Figure 2: Complaint Categories and Allegation Types

        Complaint Category                                     Allegation Type

        E-File Issues             Tax return preparer who allows others to use his or her Electronic
                                  Filing Identification Number,5 fails to file taxpayers’ tax returns, or
                                  commits other e-file violations.
        Tax Return Preparer       Tax return preparer who misrepresents his or her credentials or
        Misconduct                qualifications, commits identity theft, or discloses taxpayers’
                                  Personally Identifiable Information.
        RPO Program               Tax return preparer who has no Preparer Tax Identification Number
        Noncompliance             (PTIN)6 or commits PTIN misuse; fails to provide a copy of a return
                                  or original records to the taxpayer; commits Circular 230 violations,7
                                  commits Internal Revenue Code violations that are subject to
                                  penalties; or fails to explain refund anticipation loans.
        Tax Preparation           Tax return preparer who claims false exemptions or dependents for
        Noncompliance             taxpayers or claims false expenses, deductions, or credits.
        Theft of Refund           Tax return preparer who negotiates a taxpayer’s refund check, files
                                  a tax return that does not match the client’s copy, or diverts a
                                  taxpayer’s refund into an unknown bank account.
     Source: RPO Violation and Treatment Matrix.

Case processors are also responsible for scoring and prioritizing the complaints based on
information in the Form 14157, as well as the number of tax returns filed by the tax return
preparer and any history of prior complaints. Case processors use the Prioritization Matrix to
assign the complaint a score and priority. This matrix is used by the case processors to assign a
score based on the seriousness, risk, and severity associated with the complaint. The risk is
based on the number of returns filed by the tax return preparer and the percentage of their e-filed
returns that the IRS rejected. The complaint is assigned one of the following three scores:8
         Criminal/Egregious Allegations (Score of 5) – assigned to referrals that include refund
          theft, identity theft, disclosure of a taxpayer’s Personally Identifiable Information, and tax
          return preparer threats or bribes.
         Serious Programmatic and Tax Preparation Allegations (Score of 3) – assigned to
          referrals that include failure to explain refund anticipation loans, tax return preparer

5
  An identification number the IRS assigns to accepted applicants for participation in the IRS e-file Program.
6
  An identification number issued by the IRS that paid tax return preparers must use on tax returns they prepare.
7
  31 U.S.C. § 330 authorizes the Secretary of the Treasury to regulate the practice of representatives before the
Department of the Treasury. The Department of the Treasury issued Regulations Governing Practice before the
IRS in Treasury Circular No. 230.
8
  The IRS does not use Score 2 or 4.
                                                                                                             Page 3
                                  Processes Do Not Ensure That Complaints
                                  Against Tax Return Preparers Are Timely,
                                   Accurately, and Consistently Processed



        provided incorrect filing status of taxpayer, tax return preparer lied about self or
        credentials, or other misrepresentation.
       Minor Allegations (Score of 1) – assigned to referrals that include contested tax return
        preparation fees, e-file issues, no PTIN, or PTIN misuse.
After case processors score and prioritize the complaints, a CRO manager assigns the complaint
to a case specialist who performs research to determine which IRS business function should
work the complaint. Some complaints can be addressed by the RPO’s Compliance Office9 or the
CRO. The more serious complaints are referred to a business function such as Criminal
Investigation. Case specialists consider the complaint categories detailed in Figure 2 and use the
Violation and Treatment Matrix when deciding to which business function a complaint should be
referred.
Once a case specialist makes a referral determination, he or she completes a closing checksheet
for manager review and approval. The CRO manager reviews and approves the closing
checksheet and forwards it along with the complaint package containing the Form 14157 to the
CRO clerk. The CRO clerk then forwards the referral package to the business function based on
criteria that each function established.10 Figure 3 provides the business functions that receive the
most complaint referrals and the actions they can take to address the complaints.




9
  The RPO Compliance Office is responsible for identifying noncompliant tax return preparers, including the
planning and directing of enforcement activities conducted by other IRS functions.
10
   See Appendix V for a hypothetical example of a complaint processed by the CRO.
                                                                                                          Page 4
                                  Processes Do Not Ensure That Complaints
                                  Against Tax Return Preparers Are Timely,
                                   Accurately, and Consistently Processed



                          Figure 3: Enforcement Actions That Business
                           Functions Can Take to Address Complaints

     IRS Business Function                      Enforcement Action(s) That Can Be Taken
                                   Initiate investigations of tax fraud related to tax return preparers such
                                   as refund or identity theft and recommend cases for prosecution to
 Criminal Investigation
                                   U.S. Attorney’s Offices nationwide and the U.S. Department of
                                   Justice.
                                   Analyze, investigate, and interpret alleged practitioner misconduct in
                                   violation of Circular 230 and propose disciplinary action; negotiate an
                                   appropriate level of discipline with a practitioner or initiate an
 Office of Professional
                                   administrative proceeding to censure (a public reprimand); suspend
 Responsibility
                                   (one to 59 months) or disbar (five years) the practitioner; or propose a
                                   monetary penalty against any practitioner who engages in conduct
                                   subject to sanction.
                                   Identify noncompliant tax return preparers, and plan and direct
 RPO – Compliance Office           enforcement activities to be conducted across the IRS. For example,
 and CRO                           the Compliance Office or the CRO can send a warning or educational
                                   letter when warranted.
 Small Business/
                                   Assess penalties and can refer cases to the U.S. Department of
 Self-Employed Division
                                   Justice for injunction for activities related to the promotion of abusive
 Examination Function and
                                   tax shelters,11 or aiding or abetting understatement of tax liabilities.12
 Lead Development Centers
Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of business function responsibilities.

Taxpayers follow an alternate process if they believe a return preparer filed or
altered their tax return without consent
Taxpayers who believe a tax return preparer filed or altered their tax return without consent can
request that the IRS adjust their tax accounts. These taxpayers must complete Form 14157-A,
Tax Return Preparer Fraud or Misconduct Affidavit. Taxpayers mail the Form 14157-A,
supporting documentation, and a Form 14157 to the IRS’s Wage and Investment Division
Accounts Management function in Memphis, Tennessee. Representatives in the Accounts
Management function scan the forms and supporting documentation into the Correspondence
Imaging System (CIS),13 adjust tax accounts when appropriate, and determine if the complaint
relates to tax return preparer misconduct. Examples of complaints that warrant a tax adjustment
include substantiated complaints involving math errors by the tax return preparer and complaints

11
   26 U.S.C. § 6700.
12
   26 U.S.C. § 6701.
13
   A system for scanning all Accounts Management function adjustments receipts into digital images. An electronic
workflow delivers the cases to customer service representatives who work the cases from those paperless images.
                                                                                                          Page 5
                                   Processes Do Not Ensure That Complaints
                                   Against Tax Return Preparers Are Timely,
                                    Accurately, and Consistently Processed



that the tax return preparer altered the tax return after the taxpayer signed it. The Accounts
Management function received 4,024 Forms 14157-A in Fiscal Year14 2013 for which a taxpayer
requested a tax adjustment.

A prior TIGTA review identified concerns with IRS processing of taxpayer
complaints against tax return preparers
In a prior review,15 we reported that taxpayers who wanted to file a complaint against a paid tax
return preparer did not have adequate reporting guidelines and were asked to provide information
to the IRS that they may not have known, such as the tax return preparer’s designation,
i.e., unenrolled agent or practitioner,16 and whether the complaint involved fraud or a violation of
the tax code. In addition, the IRS’s Form 3949 A, Information Referral, which was previously
used by taxpayers to file complaints, was too generic and did not provide adequate instructions.
We also reported that the process for handling taxpayer complaints against tax return preparers
did not identify potential problem tax return preparers so that the IRS could determine the extent
of the problem or how the problem should be addressed. Complaints were not controlled and
tracked. For example, the IRS could not determine the volume of complaints or the number of
complaints in open or closed status. Moreover, there was no central point of control for the
complaints, thus complaints were reviewed multiple times and mailed to multiple offices before
most were ultimately destroyed.
TIGTA recommended that the IRS: 1) clarify guidance to taxpayers on IRS.gov regarding the
tax return preparer complaint process and 2) develop a form, both web-based and paper,
specifically for tax return preparer complaints. This form should be routed to the correct
function based on the type of tax return preparer and include information necessary for the IRS
to evaluate the legitimacy of the complaint. We also recommended that once a form is
developed to capture sufficient information about the complaint, a database(s) or tracking system
should be developed to efficiently control the complaints. The IRS agreed to update guidance on
IRS.gov and create a cross-functional team to develop recommended action items to identify
opportunities for improvement that may include changes to forms and creation of an automated
tracking system.
This review was performed at the CROs in Atlanta, Georgia, and Chesterfield, Missouri, and the
Accounts Management function in Memphis, Tennessee, during the period July 2013 through
April 2014. We also obtained and reviewed information from the RPO in Crystal City, Virginia,


14
   Any yearly accounting period, regardless of its relationship to a calendar year. The Federal Government’s fiscal
year begins on October 1 and ends on September 30.
15
   TIGTA, Ref. No. 2009-40-032, The Process Taxpayers Must Use to Report Complaints Against Tax Return
Preparers Is Ineffective and Causes Unnecessary Taxpayer Burden (Feb. 2009).
16
   The IRS refers to tax return preparers who are attorneys, certified public accountants, and enrolled agents as
practitioners.
                                                                                                             Page 6
                             Processes Do Not Ensure That Complaints
                             Against Tax Return Preparers Are Timely,
                              Accurately, and Consistently Processed



during this same time frame. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                            Page 7
                              Processes Do Not Ensure That Complaints
                              Against Tax Return Preparers Are Timely,
                               Accurately, and Consistently Processed




                                 Results of Review

Complaints Against Tax Return Preparers Are Not Timely Processed
Our review of the 8,354 complaints received in the CRO in CYs 2012 and 2013, as of
September 11, 2013, identified 6,926 (83 percent) complaints for which no work to process the
complaint was initiated or the complaint was still being processed. Specifically, we found:
      3,953 (47 percent) complaints for which no work had been initiated to process the
       complaint. Specifically, a case processor had not started reviewing these complaints to
       determine if sufficient information was available to process the complaint.
      2,973 (36 percent) complaints were determined to be processable and were either in the
       process of being scored and prioritized, waiting for manager assignment to a case
       specialist, being worked by a case specialist, or referred to a business function. CRO
       recordkeeping was not adequate to identify the number of complaints in each of these
       statuses.
      1,408 (17 percent) complaints were determined to be unprocessable by the CRO due to a
       lack of sufficient information or because the complaint did not allege tax return preparer
       misconduct.
      20 (less than 1 percent) complaints were marked as duplicate complaints in the Master
       Inventory spreadsheet.
For the 3,953 complaints for which no work was initiated, Figure 4 shows the number and time
frame these complaints had been in case processors’ inventory as of September 11, 2013.
         Figure 4: Time Frame of Complaints With No Work Initiated

        Business Days Complaints Were              Number of
       in Inventory With No Work Initiated         Complaints      Percentage
    1 to 44 Days                                       1,595           40%
    45 to 59 Days                                       438            11%
    60 to 119 Days                                     1,896           48%
    120 Days or Greater                                  24             1%
    Total                                              3,953
   Source: CRO CY 2013 Master Inventory spreadsheet.


                                                                                           Page 8
                              Processes Do Not Ensure That Complaints
                              Against Tax Return Preparers Are Timely,
                               Accurately, and Consistently Processed



The lack of timely complaint processing is attributable to a number of reasons that include:
      A higher number of complaints received in CY 2013, as of September 11, 2013, when
       compared to CY 2012. For example, as of September 11, 2013, the IRS had received
       2,069 (33 percent) more complaints than in the same period in CY 2012.
      CRO staff changes. In July 2013, the manager, clerk, and a case specialist left the CRO.
       The clerk’s departure required case processors to perform the clerk’s duties, causing case
       processors to fall behind in scoring and prioritizing complaints. The CRO added four
       employees in late CY 2013 but needed time to train the staff to process the complaints.
      New procedures were implemented for case processors and case specialists. CRO
       management updated procedures as complaint processing issues were identified. These
       revisions created a learning curve for case processors and case specialists that contributed
       to the untimely complaint processing. For example, the scoring and prioritization
       process, the Prioritization Matrix, and the Violation and Treatment Matrix were
       implemented in February 2013. Management believed that streamlining procedures and
       tools would reduce the backlog. However, the change in procedures and tools occurred
       shortly before the time frame that most complaints against tax return preparers are
       received.
In addition, CRO guidelines suggest case processors spend 10 to 15 minutes to score and
prioritize a complaint, and case specialists have 30 to 60 minutes to complete their research,
make a treatment determination, and complete the closing checksheet. A business case analysis
was not performed for use as a basis when developing these complaint processing time frames.
IRS procedures require managers to set performance goals and measure the effectiveness of their
programs, including the timeliness of completing work. Expectations must be specific,
measurable, realistic, and attainable. Management officials plan to establish time frame goals
after they reduce the backlog of complaints.

*******************************3*******************************************************************
***************************
***************************************3**************************************
***************************************3***********************************.
CRO management has not established a time frame for how long the clerk has to record a
complaint in the Master Inventory spreadsheet after IRS receipt. ********3*********
***********************************3******************************************
***********************************3***********************************. In
addition, a process was not established to periodically reconcile the number of complaints
received to the number recorded in the Master Inventory spreadsheet. The lack of reconciliation
between the number of complaints received to the number controlled in the Master Inventory
spreadsheet along with the inadequate segregation of receipt and control duties could create an

                                                                                            Page 9
                                  Processes Do Not Ensure That Complaints
                                  Against Tax Return Preparers Are Timely,
                                   Accurately, and Consistently Processed



environment in which complaints can be lost or destroyed by an employee without detection.
Currently, the clerk performs both the receipt and control duties.

Recommendations
The Deputy Commissioner for Services and Enforcement should:
Recommendation 1: Establish complaint processing time frame goals that are based on a
business case analysis. Once these time frame goals are developed, establish procedures to
ensure that the complaints are timely processed.
        Management’s Response: IRS management agreed with this recommendation. IRS
        management stated they are in the process of developing goals that will measure specific
        components of complaint processing, including timeliness. The IRS stated that
        developing the goals will be an iterative process over time.
Recommendation 2: Ensure that adequate separation of duties exists in receipt and recording
of complaints into inventory records. In addition, establish a process to periodically reconcile
the number of complaints received to the number recorded in the Master Inventory spreadsheet
to ensure that all complaints are controlled.
        Management’s Response: IRS management agreed with this recommendation. IRS
        management stated they have already implemented the separation of duties related to
        receipt and recording of complaints into inventory records. The IRS will also
        periodically reconcile the number of complaints received to the number recorded in the
        Return Preparer database,17 recognizing that there is no direct correlation between pieces
        of mail and the number of complaints received.

Processes Do Not Ensure That Complaints Are Accurately and
Consistently Processed
Our review of a statistically valid sample18 of 73 of 8,354 complaints received in CYs 2012 and
2013, as of September 11, 2013, found that an adequate process had not been established to
ensure that complaints are accurately and consistently processed. For example, of the
73 complaints we reviewed, 31 had not been fully processed by case processors and 17 could not


17
   The Return Preparer database includes preparer demographic information and aggregate data, by preparer, for the
volume of returns, the volume of returns by filing method (paper or e-file), returns with refunds, and returns with
balances due. The primary users of the database are the RPO, Return Preparer Coordinators, and Criminal
Investigation.
18
   We selected a statistical sample of 73 complaints from a population of 8,354 complaints scanned into the CRO’s
fileserver as Portable Document Format files for CY 2013 using a 95 percent confidence level, a ± 5 percent
precision rate, and a 5 percent error rate.
                                                                                                          Page 10
                                    Processes Do Not Ensure That Complaints
                                    Against Tax Return Preparers Are Timely,
                                     Accurately, and Consistently Processed



be processed due to a lack of sufficient information or because the complaint did not allege tax
return preparer misconduct.
The remaining 25 complaints were worked and completed. However, we were unable to
determine for these 25 complaints if they were properly ranked, scored, and/or prioritized
because each case processor applied risk ranking elements differently. For example, **3****
********************************3*********************************************
****************.19 *********************3*********************************
Whereas another case processor measured risk using only the return preparer’s e file rejection
rate.
Case processors must assign a priority to the complaints by evaluating the risk associated with
the complaint and assigning one of four priority levels: urgent, high, priority, or low. Correctly
assigning a priority level for the risk is important because the score contributes to the overall
priority ranking which determines when the complaint is worked. Inconsistency in measuring
risk can result in the IRS using limited resources investigating tax return preparers who do not
pose a high level of risk to tax administration. Figure 5 provides the Risk Ranking Chart that
was used by case processors.
                                      Figure 5: Risk Ranking Chart

      High Volume Tax Return              Medium Volume Tax Return                  Low Volume Tax Return
     Preparer With Problematic            Preparer With Questionable               Preparer With Acceptable
        E-File Submissions                    E-File Submissions                      E-File Submissions
            (Score of 3)                          (Score of 2)                            (Score of 1)

      > 500 returns in prior year        100 to 500 returns in prior year           < 100 returns in prior year
                                              10 to 50 percent e-file
 > 50 percent e-file rejection rate                                             < 10 percent e-file rejection rate
                                                   rejection rate
Source: IRS CRO.

However, despite the importance of risk ranking, the CRO had not developed a sufficient risk
ranking guide for case processors. For example, the Risk Ranking Chart used by case processors
did not take into account the myriad of different scenarios that are often associated with
complaints being reviewed. For example, the Risk Ranking Chart did not address a scenario in
which the return volumes and e-file rejections could fall in more than one category, such as
300 e-filed returns with an e-file rejection rate of 3 percent. In this scenario, the case processor
must make a determination whether to use the e-file rejection rate of less than 10 percent, which
would result in a low risk ranking score, or rank the complaint based on the volume of
300 e-filed returns, which would result in a medium risk ranking score.

19
  The e-file rejection rate is determined by dividing the number of tax returns rejected by the number of e-filed tax
returns.
                                                                                                             Page 11
                                    Processes Do Not Ensure That Complaints
                                    Against Tax Return Preparers Are Timely,
                                     Accurately, and Consistently Processed



When we brought this issue to management’s attention, they indicated that revisions to the
Risk Ranking Chart had not been made because they were in the process of reviewing all CRO
processes as part of their development of a new Operating Procedures Desk Guide. It should be
noted that concerns regarding the ambiguity of the Risk Ranking Chart were also raised during a
training session held in February 2014 in which the Risk Ranking Chart was discussed. Case
processors and managers attending the session could not agree on how to assign risk rankings to
complaint scenarios being reviewed as part of the training session. They agreed the current Risk
Ranking Chart is confusing. In March 2014, the CRO published new risk ranking procedures for
use by its employees. However, we did not evaluate these new procedures because they were
implemented subsequent to the completion of our audit testing.

Processes have not been established to effectively track complaint referrals to
business functions
The CRO has not established procedures to track complaints that it refers to IRS business
functions to ensure that the complaints are received for evaluation nor does the CRO track how
the referred complaints are ultimately resolved. For example, resolution and closure actions
taken by the business functions were not recorded in the Master Inventory spreadsheet.
Our review of a statistically valid sample20 of 67 complaints from the population of 741 that were
referred to business functions in CY 2013, as of September 11, 2013, found that the business
functions had no record of receiving 19 (28 percent) complaints. In addition, for 14 complaints
closed with no action, five21 did not meet the functions’ criteria for referring the complaint,
and*****************************1*********************. Figure 6 provides the
resolution of the 67 complaints we evaluated.




20
   We selected a statistical sample of 67 complaints from a population of 741 complaints referred to the three
business functions that received the most referrals using a 95 percent confidence level, a ± 5 percent precision rate,
and a 5 percent error rate.
21
   **************************************1**************************************.
                                                                                                              Page 12
                                     Processes Do Not Ensure That Complaints
                                     Against Tax Return Preparers Are Timely,
                                      Accurately, and Consistently Processed



         Figure 6: Resolution of Complaints Referred to IRS Business Functions

                                                                                Number of
                                     Resolution                                 Complaints     Percentage22

     Open – ongoing investigation                                                    19             28%
     Business function had no record of receiving complaint – For five, we
                                                                                     19             28%
     could not identify to which function the complaint was referred.
     Referred for enforcement action – Seven were referred to the
     Department of Justice (four for injunction and three for criminal
     prosecution). Six were referred to the Small Business/Self-Employed             15             22%
     Division for penalty assessment. Two were referred to the Lead
     Development Center for penalty assessment.
     Closed – No action was taken for eight because the allegation could
     not be substantiated, for five because the complaint did not meet the
                                                                                     14             21%
     business functions’ referral criteria, and for one because the complaint
     lacked sufficient information to conduct an investigation.
 Source: TIGTA analysis of 67 sampled complaints that the CRO referred to business functions in CY 2013.

The CRO is responsible for reviewing complaints to identify the correct business function that
will work the complaint. In order to identify which function will work the complaints, the CRO
compares the complaint information against referral criteria established by the functions.
However, the lack of a process to track complaint resolutions by the business functions
prevented the CRO from identifying errors such as the five complaints in our sample that did not
meet the functions’ referral criteria. In addition, without complaint resolution tracking, the CRO
cannot ensure that the business functions are receiving the complaints for evaluation.
Current procedures instruct case specialists to send all complaints associated with a project case
directly to the revenue agent working the case. This procedure sometimes results in the
complaint referral bypassing the business functions’ designated point of contact, which is
responsible for tracking the incoming complaints. For example, Criminal Investigation’s point
of contact could not account for four complaints in our sample that were routed directly to
agents. If not located, these complaints cannot be used to initiate and build a case against a
return preparer. ********************1**************************************
**********************************1*******************************************
**********************************1*******************************************
*******************1***************.




22
     Percentages do not total 100 due to rounding.
                                                                                                      Page 13
                             Processes Do Not Ensure That Complaints
                             Against Tax Return Preparers Are Timely,
                              Accurately, and Consistently Processed



Processes for contacting taxpayers to obtain missing complaint information have
not been established
Case processors determined that 1,408 (32 percent) of the 4,401 complaints that they reviewed in
CY 2013, through September 11, 2013, were unable to be processed as a result of missing
information in the Form 14157 or because the complaint did not allege tax return preparer
misconduct. However, the case processors did not attempt to obtain the missing information
because they were not required to contact the taxpayer in an effort to obtain the needed
information. We found 744 (53 percent) of the 1,408 complaints had a taxpayer address or
telephone number that the case processors could have used in an effort to contact the taxpayer.
Management had not established procedures for case processors to contact taxpayers in an
attempt to obtain missing complaint information. Without processes to obtain the missing
information, the IRS’s ability to identify problem return preparers is diminished and can affect
the IRS’s enforcement actions. Management stated that they did not have the resources to
contact taxpayers to obtain missing information and there was no way to know that contacting
the complainant would yield the necessary information to allow processing.

Duplicate scanning of Form 14157 results in inefficient use of resources
The CRO has not obtained access to the CIS, which contains electronic images of Forms 14157
and supporting documentation that may have been received from taxpayers. The Forms 14157
scanned into the CIS are those that are received in the IRS’s Accounts Management function
when a taxpayer submits a Form 14157-A. Because CRO employees do not have access to the
CIS, customer service representatives in the Accounts Management function have to mail
duplicate copies of Forms 14157 and any supporting documentation to the CRO even though this
information was scanned into the CIS. The Accounts Management function mailed
312 Forms 14157 including supporting documentation to the CRO during CY 2013.
The procedure requiring customer service representatives to mail paper Forms 14157 to the CRO
results in the inefficient use of resources in both functions. Customer service representatives
waste time mailing the forms, and the CRO clerk wastes time rescanning the forms into the
office’s fileserver. CRO management indicated that they did not obtain access to the CIS for
their employees because they had implemented new procedures and believed gaining access to
another system was too much to take on.

Recommendations
The Deputy Commissioner for Services and Enforcement should:
Recommendation 3: Ensure that criteria for referring complaints to other IRS business
functions are appropriately applied.


                                                                                          Page 14
                             Processes Do Not Ensure That Complaints
                             Against Tax Return Preparers Are Timely,
                              Accurately, and Consistently Processed



       Management’s Response: IRS management agreed with this recommendation. IRS
       management stated they now include the IRS business function’s point of contact on all
       referrals so the contact may notify the RPO if the referral criteria were not met. Also, the
       IRS plans to address proper application of referral criteria during any refresher training,
       quality reviews, and managerial reviews of complaint processing.
Recommendation 4: Develop a process that accurately tracks complaints that the CRO refers
to IRS business functions to ensure that the complaints are received for evaluation. In addition,
inventory records should include information as to whether and how the referral was ultimately
resolved by the business functions.
       Management’s Response: IRS management partially agreed with this
       recommendation. IRS management agreed it is important to ensure that all complaints
       are received by the IRS business function to which they were referred and have already
       established an assurance process. IRS management stated that they now send all referrals
       via e-mail requesting confirmation that the e-mail was read. Receipt messages are
       reconciled periodically with sent items. Unreconciled items are investigated.
       IRS management agreed that it is important to ensure that referred complaints meet the
       business functions referral criteria and the inventory records include complaint resolution
       information. However, rather than tracking the ultimate resolution of each referred
       complaint, IRS management will instead use the quarterly stakeholder referral meetings
       as an opportunity to regularly discuss whether referrals were productive and to reassess
       the continued viability of referral criteria. This will achieve the same result with far
       fewer of the limited resources than would be required to track every referral.
       Office of Audit Comment: TIGTA continues to believe IRS management should
       track how the business functions resolve referred complaints. Resolution information
       will provide more detailed information and allow the CRO to evaluate the accuracy of the
       referral criteria in place.
Recommendation 5: Ensure that the CRO establishes procedures for case processors to
contact taxpayers for missing information in order to work as many complaints as possible.
       Management’s Response: IRS management disagreed with this recommendation.
       IRS management stated that they are focused on reducing the current backlog of
       complaints and maintaining currency of complaint processing. Once the IRS is able to
       sustain currency and should the IRS have sufficient resources, it will consider designing a
       pilot test for contacting complainants who submit incomplete information as well as an
       address or telephone number to ascertain the viability and cost-effectiveness of such
       contacts. At this time, however, the IRS does not have the resources to contact
       complainants or conduct such a pilot.



                                                                                           Page 15
                             Processes Do Not Ensure That Complaints
                             Against Tax Return Preparers Are Timely,
                              Accurately, and Consistently Processed



       Office of Audit Comment: TIGTA continues to believe that taxpayers should be
       contacted for missing information on submitted complaints. Working more complaints
       will provide the CRO with information to identify problem return preparers. While we
       understand the resource limitations IRS management noted in its response, we believe, at
       a minimum, IRS management should conduct a pilot test for contacting complainants
       who submit incomplete information as soon as possible.
Recommendation 6: Ensure that access to the CIS is provided to CRO employees to allow
them to download electronic copies of Forms 14157 and related documents.
       Management’s Response: IRS management agreed with this recommendation. IRS
       management stated they have already obtained CIS access for their employees so they
       may download electronic copies of Forms 14157 and related documents.

Some Recommendations Reported in a Prior Treasury Inspector
General for Tax Administration Report Have Been Addressed
The IRS has completed corrective actions that partially address the two recommendations
included in our prior report. Guidance was developed and posted on IRS.gov, and in June 2009,
the IRS initiated the Return Preparer Review to strengthen partnerships with tax practitioners.
As a result of this internal review, the IRS created the RPO in October 2010 to oversee and
support tax professionals. Figure 7 provides the corrective actions the IRS has taken in response
to our prior audit.




                                                                                         Page 16
                                  Processes Do Not Ensure That Complaints
                                  Against Tax Return Preparers Are Timely,
                                   Accurately, and Consistently Processed



 Figure 7: Corrective Actions Implemented in Response to the Prior TIGTA Audit

              Recommendation                                            Corrective Actions
Clarify guidance on IRS.gov when the                   When a taxpayer searches on IRS.gov for
taxpayer searches for “preparer complaint”              “complaint” or “preparer complaint,” the taxpayer is
so that taxpayers can understand the                    directed to a webpage that indicates complaints may
differences in the types of tax return                  be filed on Form 14157 and mailed to the RPO in
preparers, the jurisdiction the IRS has over            Atlanta, Georgia.
enrolled and unenrolled tax return preparers,
                                                       The instructions for Form 14157 properly define the
and to which function taxpayer complaints
                                                        different types of tax return preparers.
against tax return preparers should be sent.

Develop a form, both web-based and paper,              Form 14157 was developed to capture complaints
specifically for tax return preparer complaints         against tax return preparers and includes items
that can be routed to the correct function              necessary for the IRS to evaluate the complaint.
based on the type of tax return preparer and            The IRS accepts complaints against tax return
includes the items necessary for the IRS to             preparers via paper Forms 14157. Processes for
appropriately evaluate the complaint. Once              submitting complaints electronically have not been
a form is developed to ensure that sufficient           established due to a perceived lack of resources and
information is captured about the complaint,            funding.
a database or tracking system should be
                                                       The CRO was delegated responsibility for routing
developed to efficiently control the
                                                        complaints to the correct function based on the type
complaints.
                                                        of complaint.
Source: TIGTA auditors’ analysis of actions taken in response to a previous audit report.

However, the IRS has not effectively addressed the part of our second recommendation to
develop a database(s) or tracking system to efficiently record and track complaints. In CY 2013,
the CRO began coordinating with the Small Business/Self-Employed Division to develop a
complaint module within the Return Preparer database. Although a complaint module was
developed, it does not provide the ability to efficiently and effectively track complaints and
analyze trends in return preparer conduct. For example, the complaint module does not provide
the business function’s resolution of the complaints.
Moreover, the complaint module does not provide the capability to efficiently produce
management information reports detailing key measures such as complaint receipts, closures,
and status. To obtain this much needed management information, the CRO Director exports the
data from the database to an Excel spreadsheet on a monthly basis. The data export includes
thousands of rows, a large number of columns, and many formulas that make analysis of the data
cumbersome. In addition, management officials noted that the size of the spreadsheet and large
amount of data have caused the spreadsheet to crash, i.e., stop functioning, which then requires
the CRO Director to have to export the data again.




                                                                                                     Page 17
                                    Processes Do Not Ensure That Complaints
                                    Against Tax Return Preparers Are Timely,
                                     Accurately, and Consistently Processed



Data loaded into the complaint module are incomplete
In CY 2014, data from CY 2013 were transferred from the CRO Master Inventory spreadsheet to
the new complaint module added to the Return Preparer database. However, the complaint data
from CY 2012 were not transferred because it is formatted differently than the CY 2013 data.
The CRO determined it would be too time consuming to reformat the CY 2012 data to upload it
to the Return Preparer database complaint module in advance of the 2014 Filing Season.23 The
CRO has requested upload of the CY 2012 data during CY 2014 but resources have yet to be
made available to complete the reformatting and uploading of the data. Not having the CY 2012
data in the new complaint module requires CRO employees to review the CY 2012 data in the
Master Inventory spreadsheet to identify any prior complaints about tax return preparers. Not
including the CY 2012 complaint data in the new complaint module diminishes the IRS’s ability
to identify trends in return preparer conduct.

Recommendations
The Deputy Commissioner for Services and Enforcement should:
Recommendation 7: Ensure that the complaint module in the Return Preparer database is
updated to include all data collected on complaints, including the CY 2012 data.
           Management’s Response: IRS management agreed with this recommendation and
           stated the CY 2012 complaint data have been uploaded to the Return Preparer database.
Recommendation 8: Develop the capability to produce management information reports
from the complaint module in the Return Preparer database.
           Management’s Response: IRS management agreed with this recommendation.
           IRS management stated the administrators of the Return Preparer database are currently
           updating the functionality of the database so it may be used to create management
           reports.




23
     The period from January through mid-April when most individual income tax returns are filed.
                                                                                                    Page 18
                                  Processes Do Not Ensure That Complaints
                                  Against Tax Return Preparers Are Timely,
                                   Accurately, and Consistently Processed



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the tax return preparer complaint process is
effective. We determined if sufficient controls are in place for the IRS to manage and track the
complaints, determine the validity of the complaints, and use the data to take enforcement
actions. To accomplish our objective, we:
I.      Evaluated the sufficiency of the IRS’s procedures and guidelines for processing
        complaints against tax return preparers (follow-up from prior audit).1
II.     Determined if there are sufficient controls in place to work, track, and manage the
        complaints, and determined the validity of the complaints (follow-up from prior audit).
        A. Evaluated the sufficiency of the complaint referrals process from receipt to closure.
           We selected a statistical sample of 73 complaints from a population of
           8,354 complaints scanned into the CRO’s fileserver as Portable Document Format
           files for CY 2013. We used a 95 percent confidence level, a ± 5 percent precision
           rate, and a 5 percent error rate. We traced the complaints to the Master Inventory
           spreadsheet to determine completeness and accuracy of data entered in the
           spreadsheet. We ran a query against the Return Transaction File Preparer Taxpayer
           Identification Number File to verify the information in the spreadsheet is accurate and
           matches the data in the Taxpayer Identification Number file.2 We did not analyze all
           8,354 complaints because of staff and time limitations.
        B. Determined if complaint referrals were received by business functions and whether
           the referrals provided sufficient and relevant information for the functions to work the
           referrals. We selected a statistical sample of 67 complaints from a population of
           741 complaints referred to the three business functions that received the most
           referrals. We used a 95 percent confidence level, a ± 5 percent precision rate, and a
           5 percent error rate. We did not analyze all 741 referrals because of staff and time
           limitations.
III.    Evaluated the controls for ensuring that actions are taken on complaints when warranted.




1
  TIGTA, Ref. No. 2009-40-032, The Process Taxpayers Must Use to Report Complaints Against Tax Return
Preparers Is Ineffective and Causes Unnecessary Taxpayer Burden (Feb. 2009).
2
  Preparer Tax Identification Number File data are extracted from an IRS file known as the PTIN Cross-Reference
database. This database is basically a cross-reference of Social Security Numbers and PTINs.
                                                                                                        Page 19
                              Processes Do Not Ensure That Complaints
                              Against Tax Return Preparers Are Timely,
                               Accurately, and Consistently Processed



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: the IRS’s policies, procedures,
and practices for processing Forms 14157. We evaluated these controls by interviewing
management and employees, examining applicable guidance documents, and reviewing
Forms 14157 and related information.




                                                                                           Page 20
                            Processes Do Not Ensure That Complaints
                            Against Tax Return Preparers Are Timely,
                             Accurately, and Consistently Processed



                                                                                Appendix II

                 Major Contributors to This Report

Russell P. Martin, Acting Assistant Inspector General for Audit (Returns Processing and
Account Services)
William A. Gray, Director
Paula W. Johnson, Audit Manager
Jean Bell, Lead Auditor
Van Warmke, Senior Auditor
Jerome Antoine, Auditor
Blanche Lavender, Information Technology Specialist




                                                                                          Page 21
                           Processes Do Not Ensure That Complaints
                           Against Tax Return Preparers Are Timely,
                            Accurately, and Consistently Processed



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Counsel CC
Chief, Criminal Investigation SE:CI
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
National Taxpayer Advocate TA
Director, Office of Professional Responsibility SE:OPR
Director, Return Preparer Office SE:RPO
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Senior Operations Advisor, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI




                                                                                     Page 22
           Processes Do Not Ensure That Complaints
           Against Tax Return Preparers Are Timely,
            Accurately, and Consistently Processed



                                                 Appendix IV

Form 14157, Complaint: Tax Return Preparer




                                                      Page 23
Processes Do Not Ensure That Complaints
Against Tax Return Preparers Are Timely,
 Accurately, and Consistently Processed




                                           Page 24
Processes Do Not Ensure That Complaints
Against Tax Return Preparers Are Timely,
 Accurately, and Consistently Processed




                                           Page 25
Processes Do Not Ensure That Complaints
Against Tax Return Preparers Are Timely,
 Accurately, and Consistently Processed




                                           Page 26
                                     Processes Do Not Ensure That Complaints
                                     Against Tax Return Preparers Are Timely,
                                      Accurately, and Consistently Processed



                                                                                            Appendix V

                          Complaint Processing Example

The following hypothetical example illustrates the IRS’s processing of complaints against tax
return preparers.
           The CRO received a Form 14157, Complaint: Tax Return Preparer, in CY 2013 from
           Complainant A. Complainant A selected “False Items” on the Form 14157 alleging the
           tax return preparer put false deductions and credits on the tax return which reduced the
           tax liability and inflated the refund amount. The tax return preparer e-filed 2,554 tax
           returns in Processing Year1 2012 and the IRS rejected 1,303 of these returns. There is no
           ongoing investigation of the tax return preparer, but another complainant filed a
           complaint for a similar allegation against this tax return preparer in CY 2012.
Case Processor Steps
1. Determine if a case has an ongoing investigation in an IRS function.
        Example: No ongoing investigation.
2. Select the complaint category based on information on the Form 14157.

                                                 Complaint Categories

                          Return Preparer        RPO Program             Tax Preparation
E-File Issues                                                                              Theft of Refund
                          Misconduct             Noncompliance           Noncompliance

        Example: Tax Preparation Noncompliance.




1
    The calendar year in which the tax return or document is processed by the IRS.
                                                                                                    Page 27
                              Processes Do Not Ensure That Complaints
                              Against Tax Return Preparers Are Timely,
                               Accurately, and Consistently Processed



3. Determine seriousness ranking.

                                       Seriousness Ranking
                                    Serious Programmatic and
       Criminal/Egregious
                                         Tax Preparation                  Minor Allegations
           Allegations
                                           Allegations
          Score of 5                       Score of 3                       Score of 1
                                 j. Failure to Explain Refund     q. Contested Return
 a. Theft of Refund
                                    Anticipation Loans               Preparation Fee
 b. Return Preparer Commits
    Identity Theft of a          k. Return Preparer Provides      r. Failure to Provide Copy of
    Taxpayer, or Discloses          Incorrect Filing Status of       Return or Original Records
    Personally Identifiable         Taxpayer                         to Taxpayer
    Information
                                 l. Return Preparer Files
                                    Taxpayer Return With
 c. Failure to Remit                Unreported Income/False or
                                                                  s. All E-File Issues
    Employment Tax Payment          Overstated Forms W-2,
                                    Wage and Tax Statement, or
                                    Forms 1099
                                 m. Complaints Against
 d. Return Preparer Threatens
                                    Noncompensated Return         t. No PTIN or Misuse
    or Bribes a Taxpayer
                                    Preparers
 e. Organized
                                 n. All Other Circular 230
    Crime/Kickbacks/Narcotics/
                                    Violations
    Wagering/Gambling
 f. Return Preparer Acts on
    Behalf of Taxpayer Without
                                 o. All other Internal Revenue
    Authorization or Consent
                                    Code Violations
    Due to False or Altered
    Documents
                                 p. Preparer Lies About Self or
 g. False Expenses,
                                    Credentials, or Other
    Deductions, or Credits
                                    Misrepresentation
 h. Return Preparer Claims
    False Exemptions or
    Dependents for Taxpayer
 i. Fraudulent Earned Income
    Credit (Form 3949A,
    Information Referral)

          Example: Criminal/Egregious Allegation for False Expenses, Deductions, or Credits
           (Score of 5).

                                                                                          Page 28
                                  Processes Do Not Ensure That Complaints
                                  Against Tax Return Preparers Are Timely,
                                   Accurately, and Consistently Processed



4. Determine risk ranking.

                                               Risk Ranking

  High Volume Preparer With             Medium Volume Preparer                Low Volume Preparer
      Problematic E-File                With Questionable E-File              With Acceptable E-File
   Submissions (Score of 3)             Submissions (Score of 2)             Submissions (Score of 1)

    > 500 returns in prior year       100 to 500 returns in prior year        < 100 returns in prior year
 > 50 percent e-file rejection rate 10 to 50 percent e-file rejection rate < 10 percent e-file rejection rate


           Example: High Volume Preparer With Problematic E-File Submissions (Score of 3).

5. Determine severity ranking.

                                             Severity Ranking

           Egregious                              Serious                               Minor
            Score of 3                           Score of 2                           Score of 1
        > Three complaints                    Two complaints                        One complaint


           Example: Serious (Score of 2)

6. Sum seriousness, risk, and severity rankings to determine priority.

                                             Priority Ranking
          High Priority                           Priority                           Low Priority
     Total score from 9 to 11              Total score from 6 to 8              Total score from 3 to 5



     Example: High Priority (Score of 10 (5 plus 3 plus 2))
Case Specialist, Manager, and Clerk Steps
1. Consider the complaint category and allegation type to ensure that the most egregious issue is
   researched and pursued.
     Example: Complaint Category “Tax Return Preparation Noncompliance” with
      Allegation Type “False Expenses, Deductions, or Credits.”



                                                                                                      Page 29
                              Processes Do Not Ensure That Complaints
                              Against Tax Return Preparers Are Timely,
                               Accurately, and Consistently Processed



2. Conduct research on IRS systems to confirm allegation.
    Example: The complainant submitted a Form 1040, U.S. Individual Income Tax. The
     case specialist compares the e-filed Form 1040 transmitted by the return preparer to
     determine if the allegation of false deductions and credits can be substantiated. The
     research showed that the Form 1040 e-filed by the preparer has different deductions than
     the complainant’s copy of the Form 1040.
3. Determine the treatment.
    Example: The tax return preparer has two confirmed allegations of false expenses,
     deductions, or credits. The treatment is to refer the complaint to the Office of
     Professional Responsibility.
4. The case specialist completes a closing checksheet for manager review and approval.
5. The manager reviews and approves the closing checksheet and forwards it along with the
   complaint package containing the Form 14157 to the CRO clerk.




                                                                                         Page 30
          Processes Do Not Ensure That Complaints
          Against Tax Return Preparers Are Timely,
           Accurately, and Consistently Processed



                                                Appendix VI

Management’s Response to the Draft Report




                                                     Page 31
Processes Do Not Ensure That Complaints
Against Tax Return Preparers Are Timely,
 Accurately, and Consistently Processed




                                           Page 32
Processes Do Not Ensure That Complaints
Against Tax Return Preparers Are Timely,
 Accurately, and Consistently Processed




                                           Page 33
Processes Do Not Ensure That Complaints
Against Tax Return Preparers Are Timely,
 Accurately, and Consistently Processed




                                           Page 34
Processes Do Not Ensure That Complaints
Against Tax Return Preparers Are Timely,
 Accurately, and Consistently Processed




                                           Page 35
Processes Do Not Ensure That Complaints
Against Tax Return Preparers Are Timely,
 Accurately, and Consistently Processed




                                           Page 36
